                                      NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS

                                CLOSEOUT MEMORANDUM

1 TO: AIGI     File Number: 191120030                                              Date: 04 March 2002

Subject: Closeout Memo
                                                                               I           Page 1 of 1


      There was no closeout written at the time this case was closed. The following information was
      extracted fiom the file in conformance with standard closeout documents.

      Our office was informed that the subject1was alleged to have violated conflict of interests rules for
      federal employees. The subject, who is also an adjunct professor at the awardee institution2,
      participated in a funding decision to that institution. The subject was reprimanded by NSF.

      Accordingly this case is closed.




                Prepared by:                     Cleared by:
               Agent:          Attorney:       Supervisor:      AIGI
   Name:



 Signature &
    date:
     OFFICE OF
INSPECTORGENERAL
                                             NATIONAL SCIENCE FOUNDATION
                                                    1800 G STREET.N.W.
                                                  WASHINGTON.D.C. 20550




                                                                 .       .




                                        T-OF-INTEREST VIOLATIONS INVOLVING
    AN EMPLOYE                                                                                     , - s _     ,       .
                                                                                                             .i.
                                                                                                               C




                                               ion Report-Cage No. 1911200301

    BASIS FOR I

                                                                             -.                  - . for the
                                                                                  a Program Director
                  .
                                                  -
                                informed the Actins Division dzrector of
a   that he was =adjunct professor at
              ~ a r l l e rthat month,
    amend' a continding grant to
                                                   had recommended that -NSF
                                          to awacd the 2nd year incremental
    funding for 'the-project. The Acting Division Director identified
    the ~onflict~of     interest between
    responsibiliky'for the
                                                    _and         transferred
                                    grant to another Program Director. The
                                                                                    -
    Acting Division Director then notified the Agency Ethics Official
    of the conflict. The Agency Ethics Official referred the matter to
    this office for investigation.
                      ,:   .-
         Under a$thority of the Inspector General Act of 1978, as
    amended, we 'investigated possible violations of federal statutes
    and NSF regulations
               -&q& :
                         regarding Conflict-of-Interest.
                          2 " ~
                  2 ?.-     *

    BACKGROUND
             --                                                                                                    -
      . i               NSF Appointment.   In January 1989,
    received a temporary appointment to NSF to participate as a Program
    Director in ;,the . :    rotator program.   On January 14, 1989,
              signed a personnel processing form stating, "1 have read
                                  -
    NSF Conflict.-ofInterests Rules and Standards of Conduct (NSF
    Manual No. 15). I fully understand and agree to comply with all
    provisions therein."
                                                        -
                                      991,            --    -,       A       appointment was changed to an
                                      ment,     and                                became a -permanent NSF

                                                            1
                -
                Affiliation with               ng applied to become
an adjunct professor of Engineering at       in February 1990. In
June 1990,           recieved notification that his appointment to
the position of ~djunctProfessor ad interim in the De~artment of
Civil Engineering was effective September 1, 1990.
Chairman of the Civil Enqineerinq Department,        discussed the
application process and appointment wi 'b                     - las
not received any compensation from, .-= for this appointment.
     According' to/        :, he understood that his appointment as
an Adjunct Professor for      was effective in September 1990. This
was also reflected in           - 1 1991 performance appraisal.   In
April 1992,              if ied .   - of his intent to resign from
the appollntment.   In a letter dated ~ p r i l 13, 1992, '
notified ,, _ --__ that the appointment had never been formally
approved because it was inadvertently not forwarded to the
Appointments and Promotions Committee. Whether or not
appointment was formally approved by       is not important because,
since February 1990, either                 T  was negotiating an
appointment or he was under the perception that he was serving as
an adjunct professor for!,

          .-      Involvement in a NSF Grant to          In November
1990,           recommended the award of NSF Grant No .;
a $68,238 _continuing grant to the Civil ~ngineeringDepartment at
                    signed the proposal cover sheet endorsing the
proposal as Chairman of the Civil Engineering Department for
     In March 1991,!           recommended the award of a $10,000
amendment to the     -grant for nSupport for- Women, Minority and
Disabled Engineering Research Assistants."                  signed
the proposal cover sheet for this amendment endorsing the proposal
as Chairman of the Civil Engineering Department for
     On December 11, 1991,            recommended the award of a
$42,000 amendment to the       rant for 2nd year continuation of
iunding for the project. On ~gcember18, 1991,            informed
the Acting Division Director of     of his affiliation with
and'           was relieved of his responsibilities as Program
Director for the     grant.
  .. The award and amendments were reviewed by the new Program
Director, who determined that the awards were based on scientific
merit, and it did not appear that                 had improperly
influenced the award process.
)   18 U.S.C.   §   208

         Section 208 of title 18 of the United States Code, entitled
    "Acts Affecting a Personal Financial Interest," states:
         (a) Except as permitted by subsection (b) hereof,
         whoever, being an officer or employee of the executive
         branch of the United States Government, or any
         independent agency of the United States           .
         participates personally and substantially as a Government
         officer or employee, through decision, approval,
         disapproval, recommendation, the rendering of advice,
         investigation or otherwise, in a  ...   application   .
                                                               . .
         or other particular matter which to his knowledge,
         he     ...or an organization with whom he is negotiating
         or has any arrangement concerning prospective employment,
         has a financial interest--
         Shall be subject to the penalties set forth section 216
         of this title.
         ~heni        - as an employee of NSF, recommended the grant
    award and amendments to        he was either in an arrangement
    concerning a prospective appointment or under the perception that
    he had an appointment as an adjunct professor with
            ,,personal and substantial participation in the grant
    award and amendments to     were apparent violations of 18 U.S.C.
    1 208.
          We referred these apparent violations to the U. S. Attorney's
    Off ice in the District of Columbia. The U. S. Attorney's Off ice
    advised us that it had declined to prosecute because, even though
    there appeared to be technical violations of the statute, there was
    no loss to the government, and                     !id not benefit
    financially from his affiliation with
    NSF CONFLICT-OF-INTEREST RULES, NSF MANUAL NO. 15
         According to NSF Manual No. 15, § 681.21, a current
    appointment at an institution as an adjunct professor or being
    under consideration for employment at an institution is designated
    as an automatically disqualifying interest, affiliation, or
    relationship. Section 681.21 also advises that such a relationship
    must be brought to the attention of a Division Conflicts Official.
    Section 681.22 states:
          If you have an interest, affiliation, or relationship
          that § 681.21 designates nautomatically disqualifyingn,
          you should disqualify yourself from handling the affected
          proposal or other application. You must not participate
          in handling it under anv circumstances. BE CAREFUL: in
          most cases a violation of this rule would be a Federal
a         crime.
    In addition, Section 683.20 states:
         (a) You must not be personally involved as a Federal
         employee in the handling of any proposal, award, or other
         matter in which you, .  ..   or an organization of which
         you are or may become a part has a financial interest.
         BE CAREFUL: Violation of this rule may also result in a
         violation of a criminal statute for which the penalties
         are a fine of up to $10,000, imprisonment for up to two
         years, or both.
                                                             .
         (g) You are a part of an organization if you are an
         officer, director, trustee, partner, or employee. You
         "may becomett part of an organization if you are
         negotiating with it or have an arrangement with it
         concerning such a position.
         -           r actions violated the NSF Conflict-of-Interest
    Rules. When interviewed for this investigation,               ated
    that he did not identify his affiliation with    as a conflicc and
    did not seek conflicts advice.             ~dmittedthat in January
    1989, he did sign the form stating that he read NSF Manual No. 15,
    but he actually did not carefully read the Manual until December
    1991.    When asked if he had been to a conflict-of-interest
    briefing,             replied that he had been to briefings in
a   November 1991 and May 1992.
         In 1990,,         did notify the Division Director for,    of
    his affiliation with    , and this is reflected in          8 1991
    performance appraisal. That Division Director, who was a rotator
    and left NSF in August 1991, was also the Division Conflicts
    Official at that time. However,              did not know that the
    Division Director was the Division Conflicts Official and did not
    request conflicts advice. In addition, a thorough search of the
    Division's conflicts records failed to produce any written ruling
    regarding;            ~ossibleappointment as an adjunct professor
    at     from the former Division Director.
    FINDINGS
         We found that ;                personally and substantially
    participated in the grant award and its amendments to          hile
    being involved in an arrangement concerning a prospective
    appointment as an adjunct professor at       These actions vi,olated
    the NSF Conflict-of-InterestRules and 18 U.S.C. § 208.
                      actions are troubling to us because.
    discussed the appointment with the Chairman of the ~ i v i i
    Engineering Department, the same individual who signed the proposal
    cover sheets for        ,=ndorsinq the proposals that
    reviewed. In addition,             - signed that he had read and
a
D   understood NSF Manual No. 15 and now he admits that he did not
    carefully read it until December 1991.
         It is the responsibility of federal employees to be aware of
    the regulations and laws that could affect their official duties.
    NSF has attempted to stress the importance of the conflict-of-
    interest rules and statutes by having new employees sign that they
    have read and understand NSF Manual No. 15 and by providing regular
    conflict-of-interest briefings for employees. However,
    did not attend a conflict-of-interest briefing or carefully read
    NSF Manual No. 15 until almost 3 years after receiving his initial
    appointment and after he had violated criminal statutes and NSF
    regulations.
         We found that the former Division Director, who was also
    acting as the Division Conflicts Official, was deficient in his
    duties by failing to identify and provide a written ruling on the
    conflict. However, in our view, the former Division Director's
    deficiencies did'not relieve          of his responsibilities, as
    stated in the NSF Conflict-of-Interest Rules.
    MITIGATING FACTORS
                     has cooperated fully with our investigation and has
    taken action to completely familiarize himself with NSF*s Conflict-
    of - Interest Rules. In addition,'            has admitted that his
    actions were improper and that he regrets them.
         It does not appear that             took any action to disrupt,
    or improperly influence , NSF1s normal proposal evaluation and award
    administration.             did not conceal his affiliation with
    and did inform his supervisors of that affiliation.         Finally,
               did not receive any financial benefit from his
    affiliation with      and has stated that he had no intention to
    benefit financially from that affiliation.
             --
                    :tated that his intention for obtaining a position
    as an adjunct professor at      was to work with graduate students.
    While             intention was admirable, his actions demonstrated
    an insensitivzt~to conflicts that we believe to be unacceptable
    for an NSF employee.


         Based on our investigation, we concluded that
    engaged in conduct that constituted violations of 18 U.S.C. 8 208
    and NSF's Conflict-of-Interest Rules. In addition, we concluded
    that this was an individual incident where both the employee and
    the employee's first supervisor failed to identify the conflict.
    Because it is now mandatory that all NSF employees attend a
    conflict-of-interest briefing annually and because Division
    Conflicts Officials now attend special training, we believe that
D   there are no systematic changes that need to be implemented t30the
    Current NSF Conflict -of- Interest program.
    RECOMMENDATION
         Based on the above findings and conclusion, and the fact that
    the U.S. Attorney's office has declined prosecution, we recommend
    that           receive a personal conflict-of-interest briefing by
    the Agency Ethics Official. In addition, we recommend that the
    Assistant Director for the Directorate for Engineering, or his
    designated representative, issue an appropriate reprimand to

                RESPONSE
                   agreed to the completeness and accuracy of this '
    renort but did not agree that he should receive a reprimand.
              has responded that he had already received a verbal
    reprimand for being insensitive to the NSF Conflict-of-Interest
    Rules.
         We believe, however, that this matter is sufficiently serious
    that an appropriate reprimand should be issued in writing. The
    Assistant Director for the Directorate for ~ngineering, should       I
    notify us of the disciplinary action, if any, he takee in this       I

    matter.
    Dated:   September 15, 1992                                          I
